     Department of Homeland Security

     ��������������������������



               FEMA's Initial Response in 

             New Jersey to Hurricane Sandy 





OIG-13-117                              September 2013

               ~ OFFICE
               V'                    (W INSPECTOR GENERAL
                              Department of Homeland Security
                               Washin&ton, rx.; 20528! W\\-w.oig.db:..g<>\·




                                     SEP         6 2013


MEMORANDUM FOR:               Joseph L. Nimmich
                              Associate Administrator, Response and Recovery
                              Federal E          Monagemen t Agency

FROM :
                                        ..,.,~- .. e   eneral
                                               ergency M anagem en t Oversight

SUBJECT:                      FEMA' s Ini tial Response in New Jersey to Hurricane Sandy
                              FEMA Disast er Number 4086-DR-NJ
                              Audit Report Number OIG-13-117

Attached for your information is our final report, FEMA's Initial Response in New Jersey
to Hurricane Sandy.

Our office evaluated the Federal Emergency Management Agency's {FEMA) initial
response t o Hurricane Sandy in New Jersey from early November t o mid-December
2012. We discussed the results of this audit with FEMA officials during t he course of the
au dit and provided a discussion draft report to t hem on July 10, 2013. Th e report does
not contain any recommendat ions; t herefore, you do not need to provide our office
with a written response.

Consistent with our responsibility under the Inspector General Act, we will provide
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, o r your staff may contact Kaye M cTighe, Director,
Office of Emergency Management Oversight , at (202) 254-4100.

Attachment
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


                                             BACKGROUND

After tearing through the Caribbean, Hurricane Sandy (Sandy) struck the United States
near Atlantic City, New Jersey, on October 29, 2012. Sandy’s landfall coincided with a
full moon, which caused the storm surge to rise an additional 20 percent. All told, Sandy
is one of the most costly natural disasters to hit the United States, affecting 24 States
and causing an estimated $71 billion in damage.

In the past 5 years, New Jersey has had 11 declared disasters. The Public Assistance
damage estimate for the 10 non-Sandy disasters combined is less than the estimate for
Sandy’s damage to New Jersey.

     Table 1. Declared Disasters in New Jersey for the Past 5 Years1
                               Disaster                                      Public Assistance
              Date             Number                Incident Name               Estimate
          12/22/2009            1867        Tropical Depression Ida            $ 18,521,136
            2/5/2010            1873        Snowstorm                            13,693,177
           3/23/2010            1889        Severe Winter Storm                  13,770,410
            4/2/2010            1897        Severe Storms                        30,742,406
            2/4/2011            1954        Severe Winter Storm                  50,662,081
           8/31/2011            4021        Hurricane Irene                    114,025,106
           9/15/2011            4033        Severe Storms                         4,151,240
          10/14/2011            4039        Remnants of Lee                         694,739
          11/30/2011            4048        Severe Storm                          2,037,007
           7/19/2012            4070        Severe Storm and Winds                1,255,744
                                                                              $249,553,046

          10/30/2012             4086       Sandy (estimate as of 6/25/13)   $1,179,985,150

     Source: FEMA

As the Sandy recovery phase continues, the New Jersey Public Assistance damage
estimates could continue to rise as FEMA and the State identify additional damage. In
late June 2013, FEMA estimated that the damage eligible for FEMA funding through
Public Assistance grants totaled close to $1.2 billion. This amount represented almost
5 times the combined estimated damage of the previous 10 declared disasters.




                                     

1
    Disaster information from FEMA’s website, accessed August 15, 2013. 


www.oig.dhs.gov                                      2                                 OIG-13-117
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


                                       RESULTS OF AUDIT

FEMA provided an effective and efficient response to the damages caused by Hurricane
Sandy. In its response, FEMA proactively prepared for Sandy, overcame staffing and
operational challenges, overcame staff management issues, used a variety of sourcing
mechanisms, and effectively coordinated response activities by working with key State
and Federal organizations. As of May 20, 2013, 7 months after landfall, FEMA—

    •	    Responded to 261,506 people who contacted them for help or information;
    •	    Completed 126,416 home inspections;
    •	    Obligated $396 million for Individual Assistance; and
    •	    Obligated $341.5 million for Public Assistance (about 29 percent of the 

          June 2013 total estimate for Public Assistance).


FEMA provided 100 percent Federal funding for emergency power restoration and
emergency public transportation assistance until 11:59 p.m. on November 14, 2012. For
all other response and recovery costs, FEMA will provide 90 percent Federal funding.

In evaluating FEMA’s initial response to this disaster, we focused on answering the
following questions:

    1.	   What activities did FEMA perform before the major disaster declaration?
    2.	   What were the most pressing challenges FEMA is facing in this disaster?
    3.	   What were the most significant resource shortfalls?
    4.	   How did FEMA make disaster sourcing decisions?
    5.	   How well did FEMA coordinate its activities?

1. 	FEMA Proactively Prepared for Sandy

In anticipation of Hurricane Sandy becoming a major disaster, President Obama signed
an Emergency Declaration on October 28, 2012, establishing a 12-day incident period
beginning Friday, October 26 and ending Thursday, November 8, 2012. After the
Emergency Declaration, FEMA moved quickly to mobilize an Incident Management
Action Team, set up the Initial Operating Facility, and respond to requests for initial
assistance and needed supplies using internal resources and mission assignments.2

The emergency declaration allowed FEMA to begin pre-positioning water, commodities,
generators, and personnel before the disaster declaration. Under the emergency

2
 Incident Management Action Teams are full-time, rapid-response teams able to deploy within 2 hours
and arrive at an incident within 12 hours to support the local incident commander.

www.oig.dhs.gov                                   3	                                      OIG-13-117
                               OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


declaration, FEMA mission assigned the pre-positioning medical personnel and
equipment to triage, screen, treat, and stabilize patients in the immediate aftermath of
Sandy to the Department of Health and Human Services. On October 30, the President
declared a major disaster for eight counties in New Jersey for individual assistance,
debris removal, and emergency protective measures. FEMA later amended the disaster
declaration to include the entire State for Individual Assistance, Public Assistance, and
Hazard Mitigation.

Incident Management Action Team: Because of Sandy’s effect on New York City, New
York, FEMA Region II relocated its Regional Response Coordination Center from its New
York City offices to Earle, New Jersey. The Regional Response Coordination Center
location contained the Federal Emergency Support Function partners for Region II,
which covers both New Jersey and New York. FEMA deployed the Federal Coordinating
Officer and an Incident Management Action Team to establish the Initial Operating
Facility in Ewing, New Jersey.3

Initial Operating Facility: New Jersey’s Fusion Center provided the Initial Operating
Facility support for FEMA’s disaster response process.4 The teams support the initial
establishment of a unified command and provide situational awareness for Federal and
State decision-makers crucial to determining the level and type of immediate Federal
support required. The FEMA staff at the initial operating facility transitioned to the Joint
Field Office.

Federal Staging Areas: The FEMA Logistics Management Directorate in Washington, DC,
activated the Federal staging areas at McGuire-Dix-Lakehurst, a U.S. military installation
in Burlington County, New Jersey. FEMA also deployed staging teams that arrived
before Sandy made landfall. The staging areas received commodities and equipped
personnel before area assignments. Operating under a joint effort, the staging teams in
New Jersey handled New York’s response as well.




3
 The role of Federal Coordinating Officers in disaster operations is to manage Federal resources during a
disaster. They help FEMA accomplish its core missions of saving lives, preventing suffering, protecting
property, and conducting recovery operations. Their primary mission is to coordinate the timely delivery
of Federal assistance to State and local governments, individual victims, and the private sector.
4
  The New Jersey Fusion Center is a State facility that, with support from Federal partners, provides
resources, expertise, and information with the goal of maximizing their ability to detect, prevent,
investigate, and respond to criminal and terrorist activity.

www.oig.dhs.gov                                      4                                          OIG-13-117
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


2. FEMA Overcame Staffing and Operational Challenges

New Jersey officials said that FEMA performed well in managing the challenges Sandy
presented. During the first 30 days, FEMA met the most pressing challenges of
establishing the Joint Field Office, and, according to several senior FEMA personnel,
maintaining the effective working relationship with New Jersey.

Establishment of the Joint Field Office: FEMA secured, via lease, a vacant three-story
building in Lincroft, New Jersey, to accommodate the personnel needed for a disaster of
this magnitude. At the time the General Services Administration (GSA) obtained the
building, plans included accommodating the U.S. Army Corps of Engineers long term.
However, as the disaster response turned to recovery, the U.S. Army Corps of Engineers
no longer needed the space. The building required extensive repairs to the heating,
ventilation, and air conditioning systems to be fully functional. In addition, FEMA
installed more than 100 miles of computer network cable to establish FEMA network
connectivity.

Relationship with the State of New Jersey: Currently, FEMA maintains an effective
working relationship with State officials; however, one of the challenges will be to
maintain this relationship throughout the disaster recovery process. Given the amount
of damage the State experienced, the recovery period for Sandy will be longer than any
of the State’s previous disasters. FEMA personnel who worked at the start of the
disaster will go home, as new individuals arrive to replace them. State personnel will
also rotate in and out of the Joint Field Office. Such staff changes can affect the
relationship between FEMA and the State over time because individuals differ in how
they interact with others. Several long-time FEMA personnel said that New Jersey was
among the most responsive and cooperative States that they had ever worked with
during the response phase of a disaster. One FEMA official attributed this positive
relationship to the fact that New Jersey’s Office of Emergency Management is located
within New Jersey’s State Police, and is staffed with police officers. In that official’s
opinion, because the New Jersey Office of Emergency Management has a hierarchal
structure, principles such as discipline, integrity, and a cooperative spirit fit well with
FEMA’s structured approach to disaster response.

3. FEMA Overcame Staffing and Staff Management Issues

FEMA’s management of resources (e.g., personnel, facilities, equipment, supplies) was a
key component of this disaster. To ensure an adequate response, this process required
FEMA personnel to be flexible and receptive to the ongoing changes of this disaster.
FEMA personnel did an efficient and effective job of organizing and managing resources
given the magnitude of Sandy. FEMA officials said that the most significant resource

www.oig.dhs.gov                              5                                   OIG-13-117
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


shortfalls included (1) obtaining qualified personnel within a reasonable amount of time
to sustain the daily program operational requirements of the disaster, and (2) the new
time and reporting system for FEMA payroll.

Qualified Staff: FEMA officials were concerned with the number of misclassified
personnel being sent to this disaster under the new FEMA Qualification System. FEMA
intended the qualification system to categorize FEMA reservists by job titles to provide
the best possible customer service to survivors and communities. However, a number
of FEMA officials said that this system “somewhat” hampered the disaster recovery
process because the FEMA position descriptions did not always properly align to the
personnel’s skill sets. This shortcoming prevented some reservists who qualified under
multiple job titles from being listed under the proper titles. FEMA leadership had to
scramble at the Joint Field Office to find qualified people to handle some tasks, and to
move misclassified staff into positions for which they were classified. FEMA officials
overcame obstacles from employee misclassifications to ensure the timely delivery of
disaster response and recovery services.

Time and Reporting System for Payroll: FEMA officials at the Joint Field Office said that
FEMA Headquarters established a new time and reporting system at the time of this
event, as part of a paperless initiative. FEMA implemented the system in phases for this
disaster beginning with FEMA’s Finance and Administrative Section and its Office of
External Affairs. FEMA’s New Jersey Joint Field Office officials said that the new system
reduced the level of oversight, and encouraged supervisors to sign-off on timesheets
without properly verifying hours worked. According to Joint Field Office staff, the new
timekeeping system was confusing, and timekeepers expressed concern that employees
sometimes claimed hours they had not worked. Consequently, this reduced oversight
delayed the normal operations of FEMA’s timekeeping staff, as they tried to ensure the
accuracy of the hours employees claimed.

4. FEMA Used a Variety of Sourcing Mechanisms

FEMA obtained goods and services needed in the disaster response using several
different vehicles. The primary sourcing decisions for Sandy involved the following
areas: mission assignments, logistics supply chain management, supply and equipment
requests, acquisitions, and the Emergency Management Assistance Compact.

Mission Assignments: FEMA used mission assignments as an integral part of New
Jersey’s response to Sandy. FEMA assigned missions to 29 agencies with an estimated
cost, as of January 1, 2013, of $185 million, the majority of which were to the following
four agencies:


www.oig.dhs.gov                             6                                   OIG-13-117
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


Table 2. FEMA’s Top Four Mission Assigned Agencies 

                                                                 Total Estimated Cost
                   Agency                        Missions
                                                                       (Millions)
  U.S. Army Corps of Engineers                     22                     $ 66.2
  Department of Defense                            15                       52.1
  Department of Energy                              6                       14.5
  Department of Health and Human Services           8                       14.8
                      Total                        51                    $147.6

Appendix B contains a complete list of mission assigned agencies.

FEMA’s Enterprise Coordination and Approval Processing System tracked the mission
assignments and their amendments. This system provided support to initiate, track, and
expedite the process of providing direct aid and technical assistance from other Federal
agencies and States.

Emergency Management Assistance Compacts: FEMA considers Emergency
Management Assistance Compacts to be an effective and relatively inexpensive option
that enables one State to help another when the magnitude of a disaster exceeds the
State’s capacity to respond. For this disaster, New Jersey requested and received
extensive assistance. Twenty States and the District of Columbia provided this type of
assistance in the form of law enforcement personnel, ambulance and emergency
medical service teams, and other support. After the emergency period, 36 Public
Assistance coordinators from other States assisted with the large volume of opening
conferences for Public Assistance grant recipients.

Contracting: FEMA initiated contracts from its Headquarters, as well as at the Joint Field
Office. Before this disaster, FEMA developed Disaster Acquisition Response Teams.
FEMA located a Disaster Acquisition Response Team, which consisted of several
contracting officers and support staff at the Joint Field Office. As needs arose, this team
initiated contracts in the field or tapped into pre-existing FEMA contracts. The General
Services Administration (GSA) also located contracting officers at the Joint Field Office.
Through mission assignments, these contracting officers also contracted for goods and
services, using pre-existing GSA contracts.

5. FEMA Effectively Coordinated Response Activities

FEMA officials effectively coordinated a rapid deployment and recovery initiative in
response to Sandy through the partnership of key State and Federal organizations.
Ensuring the maximization of resources, FEMA officials hosted numerous meetings that
helped to solidify, identify, and leverage shortfalls throughout the recovery process.

www.oig.dhs.gov                             7                                    OIG-13-117
                              OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


These activities included (1) coordinating with State officials, (2) identifying and
responding to temporary housing requests, (3) tracking and monitoring mission
assignments, and (4) aligning and categorizing proper staffing measures.

State Coordination: FEMA officials worked with the New Jersey Office of Emergency
Management to support the disaster response and recovery operations. At the State’s
request, FEMA delivered food, water, blankets, and generators across the affected
region. FEMA operations and logistics experts worked side-by-side with State
emergency managers to ensure the use of all Federal resources in this disaster. The
State responded to FEMA’s actions in obtaining Federal resources by signing mission
assignments in a timely manner. FEMA and the State also worked together to minimize
the duplication of benefits.

Before the disaster, the State established the disaster recovery centers for FEMA staff.
FEMA officials said this approach played a major role in the response and recovery
process.5 Typically, FEMA has to find disaster recovery centers, sign rental agreements,
and get them ready for occupation. FEMA officials said its staff was able to move in to
New Jersey’s prewired locations almost immediately and begin responding to the
disaster days earlier than is the case in the typical disaster.

Temporary Housing Requests: FEMA’s Individual Assistance Division coordinated the
response measures for temporary housing needs. The Individual Assistance Division
synchronized its response and recovery efforts with State and local governments by
identifying additional and unmet housing needs. This response included programs such
as Transitional Shelter Assistance, Financial Assistance (also known as “Temporary
Housing”) and FEMA’s Sheltering and Temporary Essential Power Pilot Program in five
New Jersey counties. In this program, homeowners applied through their municipalities
for eligible repair work on residences, including electrical meter repairs, shelter
essential measures, and rapid temporary exterior repairs. This program allowed
residents to return to their homes while they completed permanent home repairs.
Local municipal governments, in coordination with FEMA, administered and contracted
work for expenses up to $10,000. In addition, New Jersey worked closely with FEMA to
explore other housing alternatives for displaced residents.




5
 A Disaster Recovery Center is a facility where applicants may go for information about FEMA or other
disaster assistance programs, such as small business loans, administered by the Small Business
Administration.



www.oig.dhs.gov                                    8                                         OIG-13-117
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security



                                      CONCLUSION

FEMA performed well in its response to Hurricane Sandy in the State of New Jersey.
FEMA normally requires several days to deploy and position staff to the areas for
disaster response. In this instance, FEMA had facilities and staff readily available in New
Jersey when Sandy made landfall. FEMA’s access to these resources allowed a fast and
effective response. FEMA prepared well for this disaster, faced challenges with
innovative solutions, quickly resolved resource shortfalls, made efficient disaster
sourcing decisions, overcame obstacles, and coordinated its activities effectively with
State and local officials. All disasters generate unexpected issues, but the FEMA disaster
team was able to adjust and adapt to fulfill its mission efficiently and effectively.




www.oig.dhs.gov                             9                                   OIG-13-117
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security



Appendix A
Objective, Scope, and Methodology
The objective of this audit was to determine whether FEMA’s response to Hurricane
Sandy in New Jersey was effective and efficient, and to evaluate FEMA’s actions,
resources, and authorities according to Federal regulations and FEMA guidelines in
effect at the time of our fieldwork.

We interviewed FEMA Region II officials, FEMA Incident Management Action Team
members, FEMA Disaster Assistance Employees, and the State of New Jersey Office of
Emergency Management officials; reviewed FEMA Situation Reports and Incident Action
Plan reports; observed operations at FEMA’s Joint Field office in Lincroft, New Jersey;
and performed other procedures considered necessary to accomplish our objective. We
did not assess the adequacy of the agency’s internal controls applicable to disaster
response because it was not necessary to accomplish our audit objective.

We also observed operations at the following sites in the State of New Jersey:

   •   FEMA’s Regional Response Coordination Center in Earle
   •   FEMA’s Joint Field Office in Lincroft
   •   FEMA/State Applicant Briefing in Trenton
   •   Damage sites in Monmouth County.

We conducted this performance audit between November 2012 and March 2013,
pursuant to the InspectorfGeneralfActfoff1978, as amended, and according to generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based upon our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions
based upon our audit objectives.




www.oig.dhs.gov                            10                                    OIG-13-117
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security




Appendix B
Agencies Mission Assigned for Hurricane Sandy in New Jersey
Corporation for National and Community Services
Department of Agriculture
       U.S. Forest Service
Department of Commerce
       National Oceanic and Atmospheric Administration
Department of Defense
       U.S. Army Corps of Engineers
Department of Education
Department of Energy
Department of Health and Human Services
Department of Homeland Security
       Customs and Border Protection
       U.S. Coast Guard
       Federal Protective Service
       Information Analysis and Infrastructure Protection Directorate
Department of Housing and Urban Development
Department of the Interior
       U.S. Geological Survey
Department of Justice
Department of Labor
       Occupational Safety and Health Administration
Department of Transportation
Department of the Treasury
Environmental Protection Agency
Federal Communications Commission
General Services Administration
Tennessee Valley Authority
U.S. Postal Service




www.oig.dhs.gov                           11                            OIG-13-117
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security



Appendix C
Report Distribution
Department of Homeland Security

Secretary
Chief Financial Officer
Under Secretary for Management
Audit Liaison, DHS
Acting Chief Privacy Officer

Federal Emergency Management Agency

Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Deputy Associate Administrator, Response and Recovery
Director, Risk Management and Compliance
Federal Coordinating Officer, Lincroft Joint Field Office
Acting Regional Administrator, FEMA Region II
Audit Liaison, FEMA Region II
Audit Liaison, FEMA (Job Code 13-121-EMO-FEMA (b))

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform




www.oig.dhs.gov                            12                           OIG-13-117
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Grantee

Director, New Jersey Office of Emergency Management

State

New Jersey State Auditor
New Jersey Office of the State Comptroller




www.oig.dhs.gov                              13                OIG-13-117
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Appendix D
Major Contributors to this Report
Kaye McTighe, Director
Trudi Powell, Supervisory Auditor
James Miller, Senior Auditor
Ayana Henry, Analyst




www.oig.dhs.gov                          14                    OIG-13-117
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
